                                             AUDIT OF 


                   NEW JERSEY DISTRICT OFFICE 7(a) LOANS 


                                  NEWARK, NEW JERSEY 


                           AUDIT REPORT NO. 8-8-F-003-019 





This report may contain proprietary information subject to the provisions of 18 USC 1905 and must not be
released to the public or another agency without permission of the Office of Inspector General.
              BU"
                                u.s. SMALL BUSINESS ADMINISTRATION

      ta
                                  OFFICE OF INSPECTOR GENERAL
      .,~b                             Washington, D.C. 20416
      •
      ~
                            •
          ~h.1053   .",'"
           "/ST"~
                                                                     AUDIT REPORT
                                                                Issue Date: July 8, 1998
                                                                Number: 8-8-F-003-019




To:            Francisco Marrero, District Director
                New Jersey District Office

               Richard Taylor, Director 

                Preferred Lenders Program (PLP) Loan Processing Center 


                I~~ tI{fL--tt
From:          ~(jM{f!{fntoCk, Assistant Inspector General
                for Auditing

Subject: Audit of New Jersey District Office 7(a) Loans

       Attached is a copy of the subject report. The report contains two findings with five
recommendations for the New Jersey District Office Director and one for the Preferred Loan
Processing Center Director.

        The recommendations in this report are subject to review and implementation of
corrective action by your office in accordance with existing Agency procedures for audit follow­
up. Please provide your management response to the recommendations within 30 days from the
date of this report, using the attached SBA Forms 1824, Recommendation Action Sheet. .

       Any questions or discussions of the issues contained in the report should be directed to
Victor Ruiz at (202) 205-7204.


Attachment




                                                                                                   I

                                                                                                   I
                                        AUDIT OF 7 (a) LOAN PROCESSING 


                                           NEW JERSEY DISTRICT OFFICE 


                                                            NEWARK,NJ 



                                                   TABLE OF CONTENTS



                                                                                                                                        Page

SUMMARy ................................................................................................................................ .i

INTRODUCTION

     A. Background .................................................................................................................... 1 


     B. Audit Objective and Scope ............................................................................................. 1 


     C. Follow-up on Prior Audits .............................................................................................. 2

RESULTS OF AUDIT

Finding and Recommendations

     1. 	 SBA 7(a) Guaranteed Loans were not Always Processed and
         Disbursed in Accordance with SBA Requirements .......................................................... 3

     2. Loans were not Always Disbursed within Required Time Limits .................................... 8 


APPENDICIES

     A- Schedule of Loans Reviewed

     B- SBA Management Responses

     C- Report Distribution
                                          SUMMARY

        The audit was part of a nationwide review to determine whether 7( a) loans were
processed, disbursed, and used in accordance with Small Business Administration (SBA)
requirements. The New Jersey District Office was assigned 1,402 loans valued at $416 million
from March 1, 1996, to June 30,1997. The loans, made to small business concerns within the
state of New Jersey, were processed by the District Office and the Preferred Lender Program
(PLP) Processing Center. We selected a random sample of 30 loans valued at $9.4 million for
revIew.

        SBA has established procedures for lenders and SBA loan officers to follow to reduce
risk associated with loan making and to assure that only eligible loans are guaranteed. Failure to
follow these procedures increases the chance that ineligible or risky loans will be approved. We
reviewed lenders' compliance with 22 such procedures. In the period audited, we determined
that for 11 of the 30 loans, lenders did not follow at least one procedure.

       For the 11 loans, the non-compliance consisted of the following:

       • 	 Cash iIljections were not verified prior to disbursement for four loans. Without the
           required cash injections, borrowers may have insufficient working capital and less
           commitment to the business. For one of the loans, the borrower did not inject
           $13,000 as required by the loan agreement. The required iIljections for the other three
           loans were verified after disbursement.

       • 	 There was no evidence that business fmancial information was verified with the IRS
           prior to disbursement for four loans. Without verified business financial data, loan
           decisions could be based on financial data that is not credible. For two loans totaling
           $715,000 with guarantees of $536,250, lenders did not verify business financial
           information with the IRS for the three year period required by the loan agreement.
           The required verifications for two other loans were not fully completed until after
           disbursement.

       • 	 The use ofloan proceeds was not verified for two loans totaling $203,000 as required
           by the loan agreement or settlement sheets. Without verifying the use of loan
           proceeds borrowers could use loan proceeds for unauthorized purposes. Our
           subsequent review disclosed that the loan proceeds were used appropriately.

        • 	 A standby agreement was not obtained prior to disbursement for one loan. Standby
            agreements may be necessary to improve a company's equity position or to assure
            repayment ofSBA's loan.

        • 	 An updated financial statement and credit report were not obtained although one loan
            was disbursed more than one year after the approval date. Current financial
            statements and credit reports are needed to ensure that no adverse changes have
            occurred in the borrower's financial and credit condition. By reviewing financial

                                                                                                     I

                                                 i                                                   I

                                                                                                     ,
                                                                                                     i
           statements and credit reports for another loan that was ma~e to the borrower around
           the time of disbursement, we determined no adverse changes had occurred.

       We also identified two loans with errors involving the lack oftimely disbursement. The
two loans with guarantees totaling $455,000 were not disbursed by the time specified in the loan
authorizations. As a result of our audit, both lenders canceled their requests for the guarantees.

        As of March 31, 1998, 23 of the 30 sampled loans were current, 4 were canceled, 1 was
in a deferred status, 1 was undisbursed, and 1 was paid off. Lender responses regarding the loans
indicated the deficiencies were due to unintentional errors and loan officers' lack of knowledge
of the SBA requirements. In addition, two loan officers could not explain why the deficiencies
occurred.

       We recommend that the New Jersey District Office Director take the following actions:

       • 	 Take appropriate steps to protect SBA's interests by ensuring that the lender verifies
           borrower or seller financial data with the IRS, obtaining guarantee releases, or
           obtaining indemnification agreements to reflect the lack of an IRS verification.

       • 	 Re-emphasize to lenders their responsibility to verify financial data with the IRS prior
           to disbursement, to retain a documented summary and IRS data in the loan file, and to
           obtain updated financial statements and credit reports when loan disbursement
           deadlines are extended.

       • 	 Re-emphasize to lenders in writing their responsibility to ensure that required cash
           injections are made and properly documented and required standby agreements are
           obtained.

       • 	 Re-emphasize to lenders in writing their responsibility to verify use of loan proceeds
           in the event joint payee checks are not used for non-working capital expenditures.

       • 	 Re-emphasize to lenders the need to request cancellation of guarantees when the
           disbursement deadline expires or to document any disbursement extension in the loan
           file.

        We recommend that the Director, Preferred Lenders Program Loan Processing Center,
take the following action:

       • 	 Take appropriate steps to protect SBA's interests by obtaining a verification of the
           cash injection from the lender, reducing the guarantee percentage, or obtaining an
           indemnification agreement to reflect the lack of a $13,000 injection.

       In response to a draft report, the New Jersey District Office Director and the Preferred
Lenders Program Loan Processing Center Director agreed with the recommendations. We have
evaluated and considered their comments in finalizing this report.



                                                 ii
        The findings in this report are the conclusions of the OrG's Auditing Division based on
testing of the auditee's operations. The findings and recommendations are subject to review,
management decision, and corrective action by your office in accordance with existing Agency
procedures for follow-up and resolution.




                                               iii
                                       INTRODUCTION 


A.         BACKGROUND 


        Audits of the SBA LowDoc Loan Program (a subsection of the 7(a) Loan Program) in
1996 and 1997 showed that lenders and SBA district offices were not always processing loans in
compliance with existing policies and procedures. At the request of SBA's Office of Financial
Assistance, we initiated an audit of the 7(a) Loan Program to determine if a similar level of non­
compliance exists. Our evaluation will be presented in a summary report combining the results
of eight individual audits. This report presents the audit results for one site.

        Section 7(a) of the Small Business Act of 1958, as amended, authorizes SBA to provide
financial assistance to small businesses. SBA provides this financial assistance primarily by
guaranteeing loans made by participating lenders to small businesses. To obtain the SBA
guarantee, a lender must have continuing ability to evaluate, close, service and liquidate loans in
accordance with SBA requirements. A Loan Guaranty Agreement between SBA and the lender
requires the lender to abide by SBA regulations and procedures and allows the lender to request
SBA purchase of borrower defaulted loans.

        Generally, SBA regulations and procedures require both the lender and SBA to review the
borrower's eligibility, repayment ability, management qualifications, character, creditworthiness,
and adequacy of collateral for loans submitted under regular procedures. The most active and
expert lenders qualifY for SBA's Certified Lender Program (CLP) and Preferred Lender Program
(PLP), respectively. Under CLP procedures, SBA utilizes the credit presentation of the lender
and makes a credit and eligibility determination. Under PLP procedures, the Sacramento PLP
Loan Processing Center reviews the loan application solely for eligibility.


B.         AUDIT OBJECTIVE AND SCOPE

       The audit objective was to determine whether 7(a) loans (excluding special programs
with modified requirements such as LowDoc and FA$TRAK) were processed and proceeds
disbursed and used in accordance with SBA requirements. The audit was based on a statistical
sample of 30 loans valued at $9.4 million out of a population of 1,402 loans for $416 million
made to small businesses in the state ofNew Jersey between March 1, 1996, and June 30, 1997.

        The auditors determined compliance with 22 procedures established by SBA to reduce
risks associated with loan making and to assure that only eligible loans are guaranteed. To make
these determinations, the auditors reviewed lender and/or SBA file documentation for each loan
in the sample; interviewed borrower, lender, and SBA district office personnel; and visited
businesses to review records. Field work was performed from January through April 1998. The
audit was conducted in accordance with Government Auditing Standards.




                                                 1

       C.      FOLLOW-UP ON PRIOR AUDITS

            This was the first audit of the 7(a) Loan Program at the New Jersey District Office.




                                                     2



_. 

                                     RESULTS OF AUDIT

FINDING 1 SBA 7(a) Guaranteed Loans were not Always Processed and Disbursed in
          Accordance with SBA Requirements

          SBA has established procedures for lenders and SBA loan officers to follow in reducing
 risks associated with loan making and assuring that only eligible loans are approved. The chance
.that risky or ineligible loans will be approved is increased when these procedures are not
 followed. In our sample, at least one processing or disbursing deficiency was identified for II of
 30 loans reviewed. Corrective action is necessary to preclude guarantee adjustments applicable
 to $549,250 on three loans. The remaining eight loans did not require guarantee adjustments
 because corrective actions had been taken.


Cash Injections were not Verified Prior to Disbursement

        For four loans, lenders did not ensure that cash injections were made prior to
disbursement as required by the Authorization and Loan Agreement (loan agreement). Without
the required cash injections, borrowers may have insufficient working capital and less
commitment to the business. For one loan, the borrower did not inject a total of $13,000 as
required by the loan agreement. The required injections for the other three loans were verified
after disbursement.

        A loan for r:. -f'.    )sample number 7), processed under PLP procedures, was approved
int. It(      ::l to acquire commercial property and for working capital. The loan agreement
required the lender to be in receipt of evidence that the business owners injectea not less than
$70,000 in the business as equity capital. While the owners personally injected $57,000, the
remaining $13,000 of the required $70,000 was injected by the business. The lender's loan
officer believed that an affidavit and letter from the borrower's attorney provided sufficient
documentation that the business owners made the required injection. As of March 31,1998, the
loan was current.

        Lenders did not verify cash injections were made prior to disbursement for three other
loans (sample numbers 15,23, and 29). We determined the required cash injections were made.


Lack of Evidence that Business Financial Information was Verified with the IRS Prior to
Disbursement

        On four loans, lenders did not have all the required evidence that business financial
information was verified witJ:! the IRS prior to disbursement. Guarantees for two loans may need
to be adjusted due to unresolved risk resulting from lenders possibly not performing IRS
verifications of financial information provided by borrowers. SBA Policy Notice 9000-941
requires lenders to obtain IRS verification of financial information of the small business concern
prior to loan disbursement. In cases where the verification reveals no exceptions, lenders are
required to include a sununary of their evaluation in the loan file, along with all the IRS data.


                                                 3                                                    ,




                                                                                                      \
The required verifications for the other two loans were not fully completed until the loans were
disbursed.

        The first loan (sample number 19) for t: ~          J with a guarantee of 1'(. 1<c "J, processed
under regular processing procedures, was approved inc ~             ); for the purchase ofland and a
building. As the borrower's projected cash flow was based on the seller's historical financial
data, verification of this data was necessary to minimize the risk for this loan. The lender's loan
officer stated that the IRS verification of the seller's financial information was performed, but
could not explain why the evidence was not in the loan file. The lender's loan officer attempted
to verify the information during the audit, but was unsuccessful. As of March 31, 1998, the loan
was current.

        The second loan (sample number 28) for c"*- -:i, with a guarantee of            '*' ,
processed under regular processing procedures, was approved in 'If<-        ~ for construction and
renovation of existing improvements. The lender's loan officer stated that the IRS verification of
the existing business was performed, but the documents were discarded because FDIC auditors
informed them that the retention period for tax records was only three years. At the OlO
auditor's request, the lender ordered IRS tax verifications for 1993 through 1995, but only the
1995 verification has been received. The loan was current as of March 31, 1998.

        For two other loans, lenders did not fully verify three years of business financial
information with the IRS until after the loans were disbursed. We determined that the required
verifications were made after one loan was disbursed (sample number 26), and verification of
one year's information was not made until after the other loan was disbursed (sample 25).


Use of Loan Proceeds not Verified

        For two loans totaling $203,000, lenders did not verify use ofloan proceeds as required
by the loan agreement (sample numbers 17 and 29). Verification of the use of loan proceeds is
intended to prevent borrowers from using loan proceeds for unauthorized purposes. We
determined that the loan proceeds were used appropriately.


Standby Agreement not Obtained Prior to Disbursement

        One lender omitted a standby clause from the loan agreement (sample number 11). SOP
50 11, chapter XIX, states standby agreements should be obtained if such subordination is
necessary to improve a company's equity position or to assure repayment of SBA' s loan. Prior to
loan approval, the lender determined a standby agreement was appropriate for the loan. A
standby agreement was obtained after the loan was disbursed as a result of the audit.




                                                    4
                                                                                                           I
                                                                                                           I
Updated Financial Statement and Credit Report not Obtained after Disbursement Delay

        A lender failed to obtain updated financial statements and credit reports although the loan
was disbursed more than one year after the approval date (sample number 22). SOP 50 10 3,
chapter 3, states that review of updated financial statements may be necessary to assure that no
adverse change has occurred. The lender's standard practice for non-SBA guaranteed loans is to
obtain updated credit reports and fmancial statements when disbursement is made one year after
loan approval. By reviewing financial statements and credit reports for another loan that was
made to the borrower around the time of disbursement, we determined no adverse changes had
occurred.


Relationship of Loan Deficiencies to SBA Oversight

       The majority ofloans with deficiencies were originated when SBA had limited or no
oversight of the lenders' loan processing and disbursing. For certain loan processing and
disbursing actions, an SBA district office would normally be unaware of how and when the
action was done because no documentation of the action was required to be submitted to SBA.
These actions include, but are not limited to, cash injections, IRS verifications, and use of loan
proceeds. District offices also were unaware of almost all actions for loans processed under PLP
procedures.

       All of the deficiencies identified were processing or disbursing actions not normally
reviewed by or reported to SBA. As a result, the deficiencies generally would not be identified
by SBA under existing procedures until after the loan defaulted and the lender requested the
guarantee be honored.

        Because lenders were responsible for all of the deficiencies identified, we asked why the
deficiencies occurred. Lenders provided the following reasons:

        Loan officer unintentional error                        6 deficiencies
        Loan officer lack of knowledge                          4 deficiencies
        Loan officer could not provide reason                   2 deficiencies

      This issue will be further considered in a summary report because actions to minimize
SBA's risk must be implemented agency-wide.


Recommendations

        We recommend that the New Jersey District Office Director, take the following actions:

IA. 	     For sample numbers 19 and 28, take appropriate steps to protect SBA's interests by
          ensuring that the lender verifies borrower or seller financial data with the IRS,
          obtaining guarantee releases, or obtaining indemnification agreements to reflect the
          lack of an IRS verification.


                                                 5

1B. 	     Re-emphasize to lenders in writing their responsibility to verify financial data with the
          IRS prior to disbursement, to retain a documented summary and IRS data in the loan
          file, and to obtain updated fmancial statements and credit reports when loan
          disbursement deadlines are extended.

1C. 	     Re-emphasize to lenders in writing their responsibility to ensure that required cash
          injections are made and properly documented and required standby agreements are
          obtained.

1D. 	     Re-emphasize to lenders in writing their responsibility to verify use of loan
          proceeds in the event joint payee checks are not used for non-working capital
          expenditures.

        We recommend that the Director, Preferred Lenders Program Loan Processing Center,
take the following action:

IE. 	     For sample number 7, take appropriate steps to protect SBA's interests by obtaining a
          verification of the cash injection from the lender, reducing the guarantee percentage, or
          obtaining an indemnification agreement to reflect the lack of a $13,000 injection.


New Jersey District Office Director's Response

        The District Director agreed with the finding and recommendations. He agreed to take
action to protect SBA' s interests when lenders disburse loans without obtaining IRS verifications
and to notify lenders of their obligation to comply with all terms ofSBA's loan guaranty
agreement. The District Office determined that an IRS verification has now been completed for
sample number 28 and an indemnification agreement is warranted for sample number 19. The
District Director also stated that three courses ofaction are planned to re-emphasize the points
outlined in the audit report. Detailed letters will be mailed to letters, lender training sessions will
be held, and a summary of the final IG report will be published in the District Office Newsletter.


Evaluation ofthe New Jersey District Office Director's Response

       Actions taken and planned by the New Jersey District Office Director are responsive to
our recommendations.


PLP Loan Processing Center Director's Response

        The PLP Loan Processing Center Director concurred with our recommendation to protect
SBA's interests when there is a lack of evidence of a cash injection. The Director stated that he
would agree to contact the lender for sample number 7 to ask for further evidence of the required
cash injection. He would also advise the lender that if it cannot provide the documentation, any


                                                   6



                                                                                                          I
loss caused by lack ofinjection would affect SBA's decision regarding its guarantee if the lender
requests purchase at any time in the future.


Evaluation Of The PLP Loan Processing Center Director's Response

      The PLP Loan Processing Center Director's planned action is responsive to our
recommendation.




                                               7

FINDING 2 Loans were not Always Disbursed within Required Time Limits

        Two loans with guarantee approvals totaling $455,000 were not disbursed within the time
limits specified in the loan agreement. In both cases, the loan was processed by PLP lenders and,
therefore, SBA was not aware of the violations. The PLP lenders failed to identify the expired
disbursement deadlines; hence, no action was taken to cancel the guarantees or extend the
disbursement date. As a result, guarantees could have been provided based on information that
was outdated.

        Each loan applicant provides financial and background data to indicate their credit­
worthiness and repayment ability. Lenders supplement this information with credit reports and
tax information from the IRS to further verify creditworthiness and repayment ability. Because
this information is a basis for loan approval, it should be accurate and timely. Per SOP 50 10 3,
personal financial information should be provided within 90 days of the application date. Also,
an interim business financial statement for the current period should be prepared when the year­
end business financial statement is not within 90 days of the application date.

       Once the loan application is approved, the PLP lender executes an Authorization and
Loan Agreement on behalf of SBA that contains the conditions and requirements for the loan.
Among the conditions and requirements are time limits for the first and final disbursements of
loan proceeds. These time limits cannot be exceeded without the prior approval of SBA.

       Of the 30 loans reviewed, we identified 2 where the proceeds were not disbursed and the
time periods for disbursement specified in the loan agreements had elapsed. Details follow.

          A loan for $I:. ""'. J :sample number 3}, with an 80 percent guarantee, was approved .(
            *    "J for leasehold improvements, equipment and machinery. The loan agreement
          required the first disbursement to be made not later than 3 months from the approval date
          and no disbursement to be made later than 6 months from the approval date, unless such
          time is extended based on prior written consent from SBA. As of February 6, 1998 (date
          of auditor's visit), no disbursement had been made. The lender subsequently requested
          cancellation of the SBA loan guarantee.

          A loan fort ..,.   'J (sample number 10), with a 75 percent guarantee, was approved
     ["      ~         J, for acquisition of a business and related real estate. The loan agreement
        required the first disbursement to be made not later than 2 months from the approval date
        and no disbursement to be made later than 6 months from the approval date, unless such
        time is extended based on prior written consent from SBA. Over 21 months later, as of
      c         *       J. no disbursement had been made. The lender requested cancellation of
        the SBA loan guarantee after our audit inquiry.

       For sample numbers 3 and 10, the credit and financial information was at least 7 and 21
months old, respectively. Significant changes could have occurred to both the creditworthiness and
repayment ability of the borrowers during these periods. In addition, guarantee authority that could
have been applied to other loans remained obligated unnecessarily.



                                                  8          'f   E><.4
Recommendation

        We recommend that the New Jersey District Office Director, take the following action:

2A. 	   Re-emphasize to lenders the need to request cancellation of guarantees when the
        disbursement deadline expires or to document any disbursement extension in the loan
        file.


New Jersey District Office Director's Response

        The District Director agreed with the fmding and recommendation. He agreed to notify
lenders of their obligation to comply with all terms of SBA's loan guaranty agreement by mailing
detailed letters to lenders, holding training sessions with lenders, and summarizing the final OIG
report in the District Office Newsletter.


Evaluation ofthe New Jersey District Office Director's Response

      Actions planned by the New Jersey District Office Director are responsive to our
recommendation.




                                                9                                                    i
                                                                                                     I
                                                                                                     \
                                                                                Appendix A

                             SCHEDULE OF LOANS REVIEWED
                          AND THEIR STATUS AS OF MARCH 31,1998

rSAMPI."~        LOAN                                  LOAN          LOAN
,iNUMBER        NlfMBER           130RR.O\\ U{       Ai\101!N r      STATl'S       1 \' I'L

     1      r                                                     1 
 current    PLP
    2                                                                current     PLP 

    3                                                                canceled    PLP 

    4                                                                current     PLP 

     5                                                               canceled    eLP 

    6                                                                current     PLP 

     7                                                               current     PLP 

    8                                                                undisbursed PLP 

    9                                                                current     PLP 

    10                                                               canceled    PLP 

    11                                                               current     PLP 

    12                                                               current     PLP 

    13                                                               current     eLP 

    14                                                               current     PLP 

    15                                                               current     PLP 

    16                                                               current     PLP 

    17                                                               current       REG 

    18                                                               current       PLP 

    19                                                               current       REG 

    20                                                               canceled      PLP 

    21                                                               paid off      PLP 

    22                                                               current       eLP 

    23                                                               current       PLP 

    24                                                               deferred      PLP 

    2S                                                               current       PLP 

    26                                                               current       PLP 

    27                                                               current       PLP 

    28                                                               current       REG 

    29                                                             I current       PLP 

    30                                                       .J      current       PLP




                                                   Ex,   +
                                                                                              I



                                                                                              I
                                         u.s. SMAIL BUIINBSS ADMlNlS'J'RA1l0N                            Appendix B
                                                    New.l...,. DI.dd 0IIkc                              (Page 1 of4)
                                                 ,Tw Gtdu••j    o-a., .- P10w
                                                       ~N..J.onoz

- -.


       DATE:           July I, 1.991
       TO:              I'eIIII" L. McClillttlCk.
                        AIBisIant Inspector Gen~or Auditing
       FROM:            FnlllCisco A. Marrero
                        DiJlrict Director

       SUBJECT:         Audit of New Jersey District Office 7(a) Loans

       I have reviewed your draft report dIlCd June I, 1998 on !he subject and wish to provide the followiDg
       comments.

       'ThIs office agrees wi!h your recoJIIl1lomciaIion to take acUOD to prota:t SBA's iD&areal when a lender
       disburses a loa wilhout obtaining IRS verification. Your auclit indicated that two IOIDS, sample numben
        19 Ik. 28, will require corrective actions due to !be laclc. oflRS verificatioD of fiDanclai records. Our otIIc:e
       hu been in c:ontact with both of!he cited leaders IJDd has determined that _pic t1121 •t              "'­
                :3 is DOW in compliance as J:           ~          .     ::1 has obtained tIJD IICC I ry IRS
                                                                                                     *
       verifiClliOlll. Oivea the cummt SltUaboo, DO corrective action is eonII:IIIpllted. Sample 19 t: .:t­
                        :) remains in non.-npliaDea as the lender has adviSIId that Ibey an: llill awaitins IRS
        verification. 'DIIspD MYeraI _pm. [~                              -:> bu been unable to obIain a reply from the
        IRS. Our aftIce wiD also conlilGt !he IRS on !his milia". HowI!ver, since verilicalion rcquiremeuts bavo
        not been met. we are movin, to have an indenmificllion &pICIDeIIt in P'- to compenlllUlibr this IIIrioas
        omiulon.

       We also concur with your recommendation to notify lenders of their obliption 10 comply with aIltllnDl
       ofSBA's loan guaranty agreement. w. will accomplish such in several ways. Pint, a datailecl .... wiD
       be mailed to New Janey Disrrict Office lenders under !he District DlrecIm's .igualUre which will re­
       emplwize and commeut on all points outlined in your audit report. The leaer will also contain •
       staBlieut tbat failure to comply with !he guaranty ageemeot can msult in the loss or daaial ofSM's
       gIIIII'8IIty. This lca:er will be a follow-up to a memo sem to Iemlm on 4120191 after we received your
       prelimiDary verbal notice of di. auclit flndin81 (copy atI8ched for your information). Our secoacl and
       perIiaps most Imporlllllt approach to thll Issue will be to _ihese topica in all ftJIure 1_ _ traiDiag
       seminan and _Ions. Leader nain, is an effort tbat _ bave focusecI on sillCll 91% of             au
                                                                                                      SBA Ioeaa in
       New Janey l1l1I aow beinS uad_,ias" by the loan pro "iaS cenilinl. These 1raining            ,_iou,
                                                                                                         wiD _
       u a continual fCnIinder to our leadIn on JOIUI closing obligation.. Our final8lllioa will be to publish a
       summary of the flnaI 10 repoJt in our Dls1rtct OffIce Newsletter, which reaches over 1000 lending
       officers IIIIIi _         putners.

       W. uadersiInd the impommce of cOi'I'\lCting the cited deficiencies UJd you can be assured that we will 

       wade: with our leaden to improve upon this area. [fyou require 8IIy additional information, pi.. 

       conlilGt William Boone, ADDlED, al973-645-2179. 

~ID
                                 u.s. SM4LL BVBINIISS ADM1NlBJ'RAll0N
                                         ~ J..-, DIMrtct 0IIIce                         Appendix B
                                        no. 0-.,. CeMer, ~ PIoow                       (Page 2 of 4)
                                              N........ N.J. 07102
a, ",' ."p
OPPlCE OF11IB DIII'I'ItlCT DmECI'Oa




      DATE:          April 20, 1998        ~
      FROM: 	        Francisco A. Manero 

                     District Director 


      TO: 	          AU SSA Lenders

      SUBJECT: 	 Topics of Interest

      The SBA's Offic;e of the Inspector General recently audited a sample of thirty 7(1.) IOIIDS
      made by SSA lenders in New Jersey and I want to advise you of the preliminary results
      of the review. Some of the serious deficiencies noted include:

       • 	 The failure to obtain IRS verification ofwc returns before disbursement of the
           IouL
       • 	 Inadequate verification and doclDDentation on the use ofloan proceeds.
       • 	 Lack of documentaliOD rdaIed to capi1aI ~cctions by priDcipala.
       • 	 Releae of a Standby Agreement without obraiDiDg SBA concurrence.

       Wblle tile sample audited was small in comparison to our overaillOllll portfolio and the
       majority ofour lenders an: in NIl compliance, I feel that the deficiencies lIDCOVemi caD
       serve as a reminder for all lenders to exercise can: in the closing and servicing of SSA
       loans. The failure to comply with SBA's Regulations and Loan Audloriution conditions
       can jeopardize the SSA's guaranty of a loan. When the IG's repon is completed. I ",ill
       pro\ide you with more detaib on this mauer.

       On another i_. a SSA Procedural Notice (auacbed hereto) established the 1998 fee
       SUUaW"C for the annual review of lenders who participate in our Prefmed Lenclea
       Program. lbis information is being provided to all ofour lending partnerS in keeping
       with my policy ofadvising you 01110llll prognm chlnges IIId updates.

       Ifyouhave'any questions related to either of these matters, please 1:000taCt WUllam C.
       Boone, Animnt Disuict D~r for Economic Development, at 973-645-2179.


       attachment




                                                                                                       \

                                               U.S. Small Business Adrninistra~' ndix B


SB1\..
DATE: 	        June 9,1998
                                               Sacramento Loan Processing C
                                               660 J Street, Suite 233
                                               Sacramento, CA 95814·2413
                                                                                   3 f 4)
                                                                               a e 0

                                               Phone (916) 498·6446 Fax (916) 498·6434




FROM: 	        Richard Taylor ~~\...,\...
               Center Director         I

RE: 	          IG Audit of New Jersey District Office 7(a) Loans

TO: 	          Peter L. McClintock
               Assistant Inspector General for Auditing


The above draft audit report makes five recommendations to the Sacramento Loan Processing
Center. While we agree with the emphasis to improve lender performance and correct loan
deficiencies, we do not agree with all of the particular procedures recommended.

1. You stated that $13,000 ofa $70,000 cash injection was evidenced by an affidavit and letter
from the borrower's attorney, which your auditors apparently found to be unacceptable. You
recommended that we obtain verification of the cash injection from the lender, reduce the
guarantee percentage, or obtain an indemnification agreement to reflect the lack of injection.
• 	 We would agree to contact the lender and ask for further evidence of the injection. We
    would also advise the lender that if it cannot provide the documentation, any loss caused by
    lack of injection would affect SBA's decision regarding its guarantee if the lender requests
    purchase at any time in the future.
• 	 The above procedure may prompt the lender to request a reduction of the guaranteed
    percentage. SOP 50 50 4 at page 10-7 states that a lender may request and SBA may approve
    a reduction in SBA's share of the loan. However, there is no procedure allowing SBA to
    unilaterally reduce the guarantee percentage of a current loan for which there is no pending
    purchase request and therefore we could not do so.
• 	 We also do not agree with the recommendation to obtain an indemnification agreement. The
    cost to the Agency of preparing, negotiating, and obtaining such an agreement would be
    tremendous compared to the minimal risk ofloss from a fraction of the borrower's injection
    being poorly documented for a current loan. Further, we do not believe it would substantially
    enhance the Agency's position, since we retain the ability to deny liability on the guarantee if
    a purchase is requested and the lender remains liable for closing deficiencies pursuant to its
    Guaranty Agreement with SBA.

2. through 5. You recommended that we re-emphasize to lenders in writing several of their 

closing responsibilities. While it appears that the lenders do need to be reminded of those 

responsibilities, we believe it would be inappropriate for the Center to do so. SBA field offices 

are responsible for training their lenders and ~etermining when they have the ability to 

participate in PLP. SOP 50-10(4), Chapter 3, specifies that a lender may only become a PLP 

lender upon nomination by an SBA field office, which must certify that the lender has the ability 




                                                                                                       I




                                                                                                       \
     ,.   

•

                                                                                                 Appendix B
                                                                                                (Page 40f4)
              to process, close, service and liquidate SBA loans. The Sacramento Loan Processing Center
              keeps PLP lenders advised of our procedures for submitting a request for a PLP number, but we
              rely on the field offices for keeping the lenders trained on general SBA procedures and local
              closing requirements. When PLP lenders are considered for renewal, it is the field offices that
              are asked to comment on whether the lenders are meeting SBA's requirements. Therefore, we
              believe it would be more appropriate for the New Jersey District Office to advise its lenders of
              the closing requirements you outlined.




                                                                                                                 \
••


                                                                                                                                    AppendixC

                                                        REPORT DISTRIBUTION


     Recipient                                                                                                             Number of Copies 


     Administrator ................................................................................................................... 1 


     Deputy Administrator ...................................................................................................... 1 


     General Counsel ...............................................................................................................2 


     Associate Deputy Administrator for 

     Capital Access .................................................................................................................. 1 


     Associate Administrator for 

     Field Operations ............................................................................................................... 1 


     Acting Associate Administrator for 

      ·
     FmanCl.a! A sslstance
                   .       ........................................................................................................ . I
 


     Office of the Chief Financia! Officer ............................................................................... 1 


     District Director, New Jersey District Office ................................................................... 1 


     Director, Preferred Lenders Program Processing Center ................................................. 1 


     Chief, Review Branch, Operations Office, Office of Financial Assistance .................... .1 


     Genera! Accounting Office .............................................................................................. 1 

